LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5505 Connecticut Avenue, NW #307
Washington, DC 20015

February 14, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

BETHANY AUSTIN V. STATE OF ILLINOIS

Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on February 14,
2020, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondent:
RESPONDENT:
Kwame Raoul
Attorney General of Illinois
David Franklin
Solicitor General
Michael M. Glick
Criminal Appeals Division Chief
Garson S. Fischer
Assistant Attorney General
100 West Randolph Street, 12th Floor
Chicago, Illinois 60601-3218
(312) 814-2566
eserve.criminalappeals@atg.state.il.us
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 14th day of February 2020.

